December 5, 2001
Audit Report No. 01-024


The FDIC’s Identification of and
Accounting for Unclaimed Deposits
Transferred to State Unclaimed
Property Agencies
Federal Deposit Insurance Corporation                                                                           Office of Audits
Washington, D.C. 20434                                                                               Office of Inspector General




   DATE:              December 5, 2001

   TO:                Mitchell Glassman, Director
                      Division of Resolutions and Receiverships

                      Fred S. Selby, Director
                      Division of Finance


   FROM:              Russell A. Rau [Electronically produced version; original signed by Russell A.
                      Rau]
                      Assistant Inspector General for Audits

   SUBJECT: The FDIC's Identification of and Accounting for Unclaimed Deposits Transferred
            to State Unclaimed Property Agencies (Audit Report No. 01-024)

   This report presents the results of the Office of Inspector General's (OIG) audit of the Federal
   Deposit Insurance Corporation’s (FDIC) identification of and accounting for unclaimed deposits
   transferred to and due from state unclaimed property agencies. The audit objective was to
   determine whether the FDIC properly identified and accounted for unclaimed funds transferred
   from failed financial institutions to state unclaimed property agencies. 1 Specifically, the OIG
   reviewed the process that the FDIC’s Division of Resolutions and Receiverships (DRR) and
   Division of Finance (DOF) used to identify and account for unclaimed deposits transferred to the
   FDIC and the former Resolution Trust Corporation (RTC)2 from institutions that acquired failed
   banks and savings and loan associations. The FDIC and RTC subsequently transferred those
   unclaimed deposits to appropriate state unclaimed property agencies that accepted temporary
   custody of those funds for 10-year holding periods 3 in compliance with the 1993 unclaimed
   deposits amendments (UDA) to the Federal Deposit Insurance Act. 4 Appendix I provides
   additional details on our scope and methodology.

   1
       The District of Columbia is included in state unclaimed property agencies that accepted unclaimed deposits.
   2
    As provided in the RTC Completion Act of 1993, the RTC went out of existence on December 31, 1995, and the
   FDIC took over its functions on January 1, 1996.
   3
    Each 10-year holding period begins on the date that the FDIC or RTC transferred unclaimed deposits to a state
   agency.
   4
    The 1993 unclaimed deposits amendments, Pub. L. No. 103-44, 107 Stat. 220 (1993), amended § 12 of the Federal
   Deposit Insurance Act, 12 U.S.C. § 1822(e). Appendix V provides a copy of the 1993 unclaimed deposits
   amendments.
The OIG issued a related report entitled Audit of Abandoned Assets Held by States' Unclaimed
Property Agencies (audit report number A99-038, dated August 27, 1999). In that report, DRR
and DOF agreed with the OIG’s recommendations to implement procedures to obtain abandoned
assets belonging to the FDIC and monitor possible future recoveries from state unclaimed
property agencies related to abandoned properties.


BACKGROUND

UDA, which became effective on June 28, 1993, amended the Federal Deposit Insurance Act
regarding procedures for owners of unclaimed deposits to file deposit claims against failed
financial institutions. UDA provides requirements that affect the manner and time period within
which owners of unclaimed deposits may obtain funds from the FDIC, institutions that acquired
failed financial institutions, and state unclaimed property agencies. Before UDA became
effective, if account owners did not claim their deposits from the FDIC within 18 months of an
institution's failure date, the FDIC relegated those deposits to receivership claims with the same
status as general creditors. After UDA became effective, owners of unclaimed deposits in
“window period receiverships”—that is, those institutions that were closed between January 1,
1989 and June 28, 1993 but not terminated as of June 28, 1993—must claim their deposits from
the FDIC before the Corporation terminates those receiverships. To help accomplish this, the
FDIC has recently established a Web site database that contains information on these unclaimed
deposits. For institutions closed after June 28, 1993, owners of unclaimed deposits have
18 months to claim those funds from the FDIC or acquiring institutions. If account owners do
not claim deposits from acquiring institutions by the end of the 18-month period, the acquiring
institutions must transfer all unclaimed funds back to the FDIC, as stated in applicable deposit
transfer or purchase and assumption agreements.

For failed institutions taken into receivership after June 28, 1993 where the acquiring institutions
returned unclaimed deposits to the FDIC, the Corporation transfers unclaimed deposits 5 to the
appropriate state unclaimed property agency. The appropriate state is the state of the last known
address of a depositor appearing in the records of the failed financial institution. However, if a
depositor’s address cannot be identified to a state—that is, if it is a foreign address or no address
can be found—then the FDIC transfers the unclaimed deposits to the state where the failed
financial institution had its main office. The state maintains custody of the funds in accordance
with its unclaimed property laws for 10 years from the date the FDIC transferred the funds.
After the 10-year holding period, state unclaimed property agencies must return to the FDIC any
funds that account owners have not claimed. If state unclaimed property agencies refuse to
accept custody of the unclaimed deposits offered by the FDIC, the deposit owners can claim
funds from the FDIC until the Corporation terminates the associated receiverships. After the
FDIC terminates a receivership, depositors cannot make further claims to recover funds that they
deposited in the associated failed financial institution.

5
 The FDIC turns over all unclaimed United States government-owned deposits to the U. S. Treasury rather than to
state unclaimed property agencies. The FDIC transfers all other unclaimed deposits to the state unclaimed property
agencies in states that agree to accept custody of the unclaimed deposits.



                                                         2
The FDIC developed—and the RTC adopted—the Unclaimed Deposits Reporting System
(UDRS) as its automated system to comply with UDA tracking and reporting requirements. The
RTC’s Claims Bulletin 05-09 dated September 28, 1995, and the FDIC’s Unclaimed Deposits
Reporting System User Manual, dated June 8, 1995, stated that UDRS was to provide an
automated and uniform means of complying with UDA requirements and efficiently responding
to customers. In October 1999, DOF began recording unclaimed deposits transferred to the
states in the Corporate Accounts Receivable Management System (CARMS).

When the RTC ceased operations on December 31, 1995, the FDIC assumed the RTC's
responsibilities for unclaimed deposits related to failed savings and loan associations in addition
to its responsibilities for unclaimed deposits related to failed banking institutions. As of April 1,
2001, DRR had 154 receiverships that failed after June 28, 1993 and were, therefore, subject to
UDA. Accordingly, the FDIC and former RTC may have transferred unclaimed deposits from at
least 154 failed financial institutions to state unclaimed property agencies.


RESULTS OF AUDIT

The FDIC has not effectively identified, accounted for, and monitored unclaimed deposits
transferred to state unclaimed property agencies. Although the FDIC has policies and procedures
to identify and systems to account for unclaimed deposits, they have not been effective in
ensuring that all unclaimed deposits transferred to state unclaimed property agencies were
completely and accurately identified and recorded. Specifically, the FDIC's systems were not
complete and accurate and did not agree on the amounts of unclaimed deposits transferred to
state unclaimed property agencies. In addition, the amounts recorded in the FDIC's systems did
not agree with amounts that state unclaimed property agencies reported to the OIG. Moreover,
the FDIC has not adequately monitored state unclaimed property agencies to determine the
amounts of unclaimed deposits that should be returned to the FDIC at the end of 10-year holding
periods. We estimate that an additional $1.4 million could be remitted to the FDIC if additional
controls are established and consider this amount to be funds to be put to better use. This
amount represents the net difference, reduced by the percentage of state-paid claims, between the
FDIC’s records and state-reported amounts for the 34 states and the District of Columbia that
responded to our requests. Appendix IV shows the OIG’s calculation of funds to be put to better
use.


THE FDIC NEEDS TO RECONCILE ITS UNCLAIMED DEPOSITS TRACKING
SYSTEMS

The FDIC’s systems used to record unclaimed deposits—DRR's UDRS and DOF's CARMS—
contained differences in total unclaimed deposits transferred to state unclaimed property
agencies; and, therefore, the completeness, accuracy, and reliability of the systems are
questionable. The FDIC developed UDRS as an automated means to record and track the status
of all unclaimed deposits and efficiently respond to customer inquiries. However, because the
FDIC’s and RTC’s offices did not always use UDRS to record unclaimed deposit data or



                                                  3
removed recorded data from the system when offices closed, the system did not include
information on all unclaimed deposits transferred to state unclaimed property agencies.
Although CARMS included more data on unclaimed deposits than UDRS, it also was not
complete. In addition to the data maintained in UDRS and CARMS not agreeing, both systems
also reported amounts different from those that state unclaimed property agencies reported to the
OIG. Differences between the FDIC’s internal systems and between those systems and
state-reported data make the FDIC’s data on unclaimed deposits transferred to state unclaimed
property agencies unreliable. Without reliable data, the FDIC—as receiver for failed financial
institutions—cannot ensure that states accurately return remaining unclaimed deposits to the
FDIC at the end of the 10-year holding periods, the first of which expires in 2005.


DRR’s Inconsistent Use of UDRS Affected Efforts to Identify Unclaimed Deposits

DRR was aware that UDRS was not complete and maintained hard-copy documentation to
support some of the unclaimed deposits not included in that system. The differences between
amounts recorded in UDRS and CARMS are partially attributable to the inconsistent use of
UDRS by the former Western Service Center. The Western Service Center recorded unclaimed
deposits in two separate systems—UDRS and an access database. In addition, DRR had
removed some information previously recorded in UDRS from the system when the Western
Service Center closed. DRR provided the OIG with reports from UDRS and the access database
on June 15, 2001. However, we did not analyze that documentation because for some financial
institution numbers (FIN), the reports did not break unclaimed deposits out by state. In addition,
DRR officials stated that UDRS had previously included unclaimed deposits for the FDIC’s
former Northeast Service Center but that information was apparently removed from UDRS when
that office closed.

DRR experienced significant problems in identifying, locating, and providing information to the
OIG on unclaimed deposits transferred to state unclaimed property agencies and did not provide
data on unclaimed deposits in a timely manner. DRR provided unclaimed deposit information
on a total of $29.6 million using various sources. Of the $29.6 million in unclaimed deposits that
the FDIC transferred to state unclaimed property agencies based on DRR records, UDRS
included data on only $9.5 million in automated format. The remainder of the $29.6 million was
composed of $14.8 million from the former Western Service Center available in hard-copy
UDRS reports and an access database and $5.3 million from hard-copy UDRS reports that
related to the former Northeast Service Center. In addition, some of DRR’s information on
unclaimed deposits was available by FIN only and not by state.

A DRR official stated that the division does not consider just the information in UDRS to be the
system of record for unclaimed deposits. Instead, he stated that the system of record includes all
information recorded in UDRS plus any information from local area network file servers,
computer disks, tapes, and hard-copy printouts.

We disagree with this position. The RTC’s Claims Bulletin 05-09, dated September 28, 1995,
and the FDIC’s Unclaimed Deposits Reporting System User Manual, dated June 8, 1995, define
UDRS as the automated tracking and reporting system to provide an automated and uniform



                                                4
means of complying with UDA. Maintaining a system of record that includes the variety of data
sources cited above contributes to unreliable and nonuniform data and inaccurate management
reporting. In addition, maintaining information in varied forms and locations rather than a
centralized database contributed to DRR’s inability to reliably retrieve data when needed.
During our audit, DRR officials initiated a project to reconcile UDRS, the access database, and
any documentation in hard-copy format.


DOF’s Efforts to Identify Unclaimed Deposits

In 1997, DOF recognized the significance of identifying all unclaimed deposits transferred to
state unclaimed property agencies and initiated a project to identify and record in CARMS all
unclaimed deposits that the FDIC transferred to those agencies. DOF initiated the project by
reviewing UDRS, which as of September 30, 1998, totaled about $9 million. Because UDRS did
not contain the complete universe of unclaimed deposits, DOF reviewed hard-copy
documentation that DRR maintained. DOF also contacted individuals within the FDIC that
might have knowledge of records that identified unclaimed deposits not included in UDRS.
DOF identified additional unclaimed deposits totaling about $20 million—for a total of about
$28.7 million—and between October 1999 and February 2000 loaded that information into
CARMS. Because DOF captured all information that it located related to unclaimed deposits
into a centralized automated database, it could readily generate reports on unclaimed deposits
transferred to state unclaimed property agencies.

Although DOF made a concerted effort to identify and record in CARMS all unclaimed deposits
that the FDIC transferred to state unclaimed property agencies, the accuracy of CARMS as well
as UDRS was still questionable. We compared UDRS and CARMS data and identified
unclaimed deposits in UDRS that were not in CARMS. For example, UDRS showed $27,180 in
unclaimed deposits from Franklin Federal Savings Association (FIN 1285) that were apparently
transferred to the state of Missouri. However, DOF had not recorded the Franklin Federal
unclaimed deposits in CARMS. Likewise, UDRS showed $2,562 in unclaimed deposits from
Zia New Mexico Bank (FIN 4635) that the FDIC may have transferred to the state of New
Mexico that DOF had not recorded in CARMS. Accordingly, although CARMS data was more
complete, neither UDRS nor CARMS contained the complete universe of unclaimed deposits
that the FDIC transferred to state unclaimed property agencies. On May 31, 2001, a DOF
official requested that we provide information on the missing unclaimed deposits to assist in
correcting CARMS data. We provided that information to DOF on June 4, 2001.


Differences in FDIC and State-Reported Totals

In addition, state unclaimed property agencies reported receiving unclaimed deposit amounts that
differed from the FDIC’s records. Of the 35 agencies that responded to our requests—34 states
and the District of Columbia—only nine reported amounts that agreed with the FDIC’s records.
However, officials from three of those nine states requested that the OIG provide the
FDIC-reported amounts to them before they could respond to the OIG's requests. All of the
26 remaining states that responded to our requests reported receiving unclaimed deposits in



                                               5
amounts that differed—some significantly—from the amounts that the FDIC reported
transferring to those states. Specifically, those 35 responding agencies reported receiving a total
of $27,844,275 in unclaimed deposits compared to $25,934,737 that DOF's records showed the
FDIC transferring to those states. Of the 35 agencies that responded, 13 reported receiving
$2,661,823 more in unclaimed deposits than the FDIC reported transferring. Conversely,
13 reported receiving $752,286 less in unclaimed deposits than the FDIC reported transferring.
The remaining nine of the 35 responding agencies reported receiving the same amounts as the
FDIC reported transferring. Accordingly, the state-reported totals differed from FDIC totals
recorded in CARMS by a net difference of $1,909,537. Appendix II shows the differences
between the FDIC’s records and state-reported totals for the 34 states and the District of
Columbia that responded to our requests.

The states’ responses indicated that millions of dollars could be available that the states should
return to the FDIC at the end of the 10-year holding periods. Specifically, the District of
Columbia and 34 responding state agencies reported paying $6,789,070 in claims to account
owners and holding $21,055,205, an amount that—barring any additional claims—those entities
should return to the FDIC after the 10-year holding periods end.

Table 1 shows the differences between the FDIC and state-reported amounts for the six states
with the largest reported differences.

Table 1: Comparison of Selected FDIC and State-Reported Unclaimed Deposits
                                Reported by the
             State             FDIC in CARMS*              Reported by State              Difference
    Texas                          $    307,476               $ 2,613,413                 $(2,305,937)
    New York                            638,328                   280,186                     358,142
    California                       13,376,734                13,193,214                     183,520
    Maryland                            487,149                   377,507                     109,642
    West Virginia                       163,591                   255,631                     (92,040)
    Florida                           3,329,556                 3,411,804                     (82,248)
    Totals                         $18,302,834                $20,131,755                 $(1,828,921)
*
 Although UDRS is the FDIC's automated system to record and track unclaimed deposits, CARMS included more
unclaimed deposits transferred to states.

Source: OIG analysis of state unclaimed property agencies’ reports and CARMS data as of December 5, 2000.



For some of the reported differences, we determined the apparent causes for identified
differences. The causes that we identified for differences in FDIC and state-reported unclaimed
deposits follow for several states shown in table 1 above:

       •   CARMS showed that beginning in March 1995, the FDIC transferred $307,476 in
           unclaimed deposits from 31 failed financial institutions to the state of Texas. However,
           Texas reported in its response to the OIG that it received transfers totaling $2,613,413


                                                      6
         for 38 institutions. Texas reported receiving transfers for 7 of those 38 institutions before
         March 1995, which could account for all or part of the $2,305,937 difference.

     •   CARMS showed that the FDIC transferred $638,328 in unclaimed deposits from
         39 failed financial institutions to the state of New York during the period November 1995
         through April 1998. However, New York reported in its response to the OIG that it
         received one transfer on July 16, 1996 for $280,186 for one institution—Columbia
         Banking Federal located in Rochester, New York (FIN 1283). Accordingly, New Yo rk
         acknowledged receiving unclaimed deposit funds for only 1 of the 39 institutions
         reported by the FDIC, which could account for the $358,142 difference.

     •   CARMS showed that the FDIC transferred $3,329,556 in unclaimed deposits from
         44 failed financial institutions to the state of Florida. However, Florida reported in its
         response to the OIG that it received $3,411,804 for the 44 institutions. The difference of
         $82,248 was attributable primarily to one transfer in April 1996 for one failed
         institution—Hollywood Federal Savings Bank (FIN 1298). For that institution, CARMS
         showed $2,318,380 transferred while the state of Florida reported $2,400,545—a
         difference of $82,165.

In addition, some states that responded indicated they had not received unclaimed funds from the
FDIC or had returned checks received to the Corporation. For example, a state of Alaska
unclaimed property office official stated that—in addition to the unclaimed deposits confirmed to
the OIG totaling $9,899—the state received reports that the FDIC would transfer other
unclaimed deposits totaling about $161,000. However, the unclaimed property office official
stated that Alaska never received the other unclaimed deposits. In addition, a state of Hawaii
Department of Budget and Finance official said that the state accepted only one check for
$230 from the FDIC. The official added that the state had not accepted other checks that it
received from the Corporation. However, CARMS showed that the FDIC transferred $1,491 in
unclaimed deposits from six institutions to the state of Hawaii. As of May 31, 2001, DOF’s
Bank Account Control Unit, which was reconciling unclaimed deposits recorded in CARMS, had
identified at least $100,000 in unclaimed deposit checks sent to state unclaimed property
agencies that were not included in CARMS. The Bank Account Control Unit had also identified
at least 78 other checks sent to state agencies that DOF had recorded in CARMS but determined
the states had not cashed the checks.

Nine of the 44 unclaimed property agencies from which the OIG requested information did not
respond to our request. Appendix III shows those nine states and the unclaimed deposits that
CARMS reported the FDIC transferred to each one.

As previously mentioned, the net difference, reduced by the percentage of state-paid claims, was
an estimated $1.4 million. Promptly reconciling the unclaimed deposit differences between the
FDIC-reported transfers to states and the state-reported receipts should help ensure that the states
timely and accurately return any remaining unclaimed deposits at the end of the 10-year holding
periods. Accordingly, we will report as funds to be put to better use an estimated $1.4 million in
our Semiannual Report to the Congress as the reduced net difference between the FDIC’s




                                                   7
records and state-reported amounts for the 34 states and the District of Columbia that responded
to our requests. Appendix IV provides the OIG’s calculation of funds to be put to better use.


THE FDIC NEEDS TO MONITOR UNCLAIMED DEPOSITS TRANSFERRED TO
STATE UNCLAIMED PROPERTY AGENCIES

The FDIC has not monitored unclaimed deposits that it transferred to states to ensure that
amounts remaining unclaimed at the end of the 10-year holding periods are timely and accurately
returned. Monitoring of unclaimed deposits should include obtaining certification from state
unclaimed property agencies acknowledging amounts transferred and confirming that states
received and understood the FDIC’s requests for data on unclaimed deposits. In addition, the
FDIC should periodically follow up with the state agencies to determine the status of unclaimed
deposits and reinforce UDA requirements that states return unclaimed deposits to the FDIC at the
end of the 10-year holding periods. However, our review of DRR’s and DOF’s correspondence
files found no evidence that the FDIC had communicated with state unclaimed property agencies
since unclaimed deposits were initially transferred to them. In addition, state unclaimed property
agencies had not voluntarily provided reports to the FDIC. The lack of adequate and consistent
monitoring could affect the FDIC's ability to ensure that state agencies comply with the UDA
requirement to return any unclaimed funds remaining at the end of the 10-year holding periods.

The FDIC’s Claims Manual, dated March 1994, and its subsequent revision in March 1996,
provide specific guidance on the transfer of unclaimed deposits to state unclaimed property
agencies and assign responsibility to DOF for monitoring unclaimed deposits transferred to state
agencies. The Claims Manual did not provide guidance for DOF’s monitoring of unclaimed
deposits. However, the RTC’s Claims Bulletin 05-09, dated September 28, 1995, on unclaimed
deposits transferred under UDA states that DOF should request annual reports from state
agencies in order to monitor unclaimed deposits. Those reports could have provided information
on the amounts transferred to state unclaimed property agencies, claims paid to deposit owners
by the state agencies, and remaining unclaimed deposits to be returned to the FDIC.

At the time the FDIC transferred unclaimed deposits to state unclaimed property agencies, DRR
forwarded letters to those agencies outlining amounts transferred and, in some cases, provided
general guidance on requested reporting. However, DRR provided inconsistent guidance to state
unclaimed property agencies in its requests for reports. Specifically, DRR did not provide
reporting guidance to all state unclaimed property agencies. Moreover, for those state agencies
to whom DRR provided guidance, the guidance either varied regarding when and to whom to
report or was unclear. For example:

     •   The FDIC transferred unclaimed deposits to the state of New Jersey in August 1996.
         DRR informed New Jersey’s unclaimed property agency that as the end of the 10-year
         holding period approached, an FDIC representative would contact the state unclaimed
         property agency to facilitate the return of any remaining unclaimed deposits. Our review
         of DRR and DOF correspondence files indicated that there had not been any additional
         communication between the state of New Jersey and the FDIC since August 1996.




                                                 8
     •   Conversely, in April 1996, when the FDIC transferred unclaimed deposits to the state of
         New York, DRR requested that New York’s unclaimed property agency provide annual
         reports on the status of those funds. In February 1997, New York requested that the
         FDIC provide a list of institutions from which it had transferred unclaimed deposits to the
         state of New York. However, we found no evidence of any subsequent reporting or
         additional correspondence between the state of New York and the FDIC after February
         1997.

     •   Finally, when the FDIC transferred unclaimed deposits to the state of California in April
         1997, the transmittal letter from the FDIC stated: “. . . the deposits must be returned to
         the FDIC immediately, if not claimed by their depositors within 10 years.”

Because of the inadequate or inconsistent reporting guidance that the FDIC provided, many state
unclaimed property agencies may not be aware of UDA requirements. For instance, state
unclaimed property agency officials from five states said that they were not aware of UDA and
did not know that they were to return any remaining unclaimed deposits to the FDIC at the end
of the 10-year holding period. Some state agency officials requested that we provide a copy of
UDA to them for review because they were not aware of its provisions or their responsibilities
under UDA. For example, before we explained the UDA requirements, one official from the
state of Wisconsin said that according to Wisconsin law, any unclaimed deposits belong to
Wisconsin residents; and, therefore, Wisconsin does not have to return those funds to the FDIC.

In January 1998, DRR and DOF recognized that the FDIC had not reconciled and tracked
unclaimed deposits and began discussions to determine which division should handle those
responsibilities. At that time, DRR believed that it would be necessary for the FDIC to contact
state unclaimed property officials to obtain information on unclaimed deposits transferred to
state agencies. However, we found no evidence that DRR or DOF had contacted any states
regarding unclaimed deposits that the FDIC transferred to them under UDA.


CONCLUSIONS AND RECOMMENDATIONS

The FDIC has not effectively accounted for or monitored unclaimed deposits transferred to state
unclaimed property agencies. The FDIC should reconcile UDRS and CARMS data on
unclaimed deposits transferred to state agencies. In addition, the FDIC should ensure that its
system of record provides an automated, uniform means of recording, tracking, and reporting on
unclaimed deposits. Further, the FDIC should reconcile its data on unclaimed deposits
transferred to state unclaimed property agencies with the state agencies’ data. Finally, the FDIC
should ensure that all states receiving unclaimed deposits have a clear and consistent
understanding of UDA and the need for the FDIC to receive information on the status of
unclaimed deposits. Accordingly, the FDIC should periodically communicate with state
unclaimed property agencies on the status of the unclaimed deposits transferred to those
agencies. Educating state unclaimed property agencies regarding UDA requirements and
reconciling and monitoring unclaimed deposits transferred to them should ensure that states
accurately and timely return all remaining unclaimed deposits at the end of the 10-year holding
periods that begin to expire in 2005.



                                                  9
In August 1999, the OIG issued a report to DOF and DRR entitled Audit of Abandoned Assets
Held by States’ Unclaimed Property Agencies (audit report number A99-038). In that report, the
OIG recommended that the FDIC remove assets held by states’ unclaimed property agencies
from the finders fee program that DRR operated and make DOF responsible for recovering those
assets. As of May 2001, DOF's Bank Account Control Unit had recovered about $5.3 million
dollars and avoided paying finders fees to private individuals and firms for those assets. In
recovering those assets, the Bank Account Control Unit has established contacts at state
unclaimed property agencies that would facilitate monitoring FDIC and state-reported unclaimed
deposits.

In addition, the National Association of Unclaimed Property Administrators (NAUPA) could be
an effective mechanism for the FDIC to communicate and disseminate educational material to
states regarding UDA and the FDIC’s reporting requests for unclaimed deposits transferred to
states. NAUPA membership includes unclaimed property agency representatives from all states
and the District of Columbia. According to NAUPA's Internet Web site, its mission is to
promote and support excellence and professionalism among those individuals charged with the
responsibilities of unclaimed property administration and compliance.

Finally, at DOF’s and DRR’s requests, we provided a list of state unclaimed property agency
officials who responded to our request for information on unclaimed deposits. Those contacts
should assist the FDIC in providing information on UDA and FDIC requirements, obtaining
information on amounts transferred and received, and monitoring any remaining unclaimed
deposits that the states should return at the end of the 10-year holding periods.

Accordingly, to improve the FDIC’s identification of and accounting for unclaimed deposits
transferred to state unclaimed property agencies, and to facilitate the Corporation's monitoring of
these deposits, we recommend that the Director, DOF, in coordination with the Director, DRR,
take the following actions:

     (1) Update both UDRS and CARMS with all unclaimed deposits that the FDIC transferred
         to state unclaimed property agencies and ensure that the two systems agree.

     (2) Reconcile the variance between the FDIC’s unclaimed deposits transferred to states
         and the state-reported unclaimed deposits received. (We will report as funds to be put
         to better use the estimated $1.4 million net variance, reduced by the percentage of
         state-paid claims, between the FDIC unclaimed deposits recorded in CARMS and the
         amounts reported as received by the 34 states and the District of Columbia that
         responded to our requests.)

     (3) Implement procedures to monitor unclaimed deposits transferred to state unclaimed
         property agencies, including requesting annual reports from state unclaimed property
         agencies.

     (4) Provide clear, consistent guidance to state unclaimed property agencies regarding UDA
         and FDIC requirements for receiving, administering, and returning unclaimed deposits.



                                                10
The Director, DRR, should take the following action:

     (5) Maintain an accurate automated system of accounting for unclaimed deposits
         transferred to state unclaimed property agencies from which reports can be accurately
         and timely retrieved.


CORPORATION COMMENTS AND OIG EVALUATION

On October 1, 2001, the Director, DOF, and Director, DRR, provided a joint written response to
a draft of this report. The Directors’ response concurred with all five recommendations. We
consider the recommendations to be undispositioned and open until agreed-to corrective actions
are completed. We did not summarize the responses for those recommendations because the
actions planned or completed are identical to those recommended. Appendix VI to this report
presents the Directors’ response.

The Directors’ response disagreed with our conclusion that funds will be put to better use if
corrective action is taken. The response stated that (1) amounts used in our calculation were
based on unsubstantiated state-provided data and (2) the funds needed to be currently available
and controlled to be classified as “funds to be put to better use.”

Regarding the concern raised about “unsubstantiated state-provided data” in our calculation, we
acknowledge that the reconciliation process will likely identify differences in amounts to be
returned—in some cases less than initially estimated, in other cases more. However, our
estimate was based on the best information available at the time of our review and is reasonable
based on steps taken to be conservative. The estimate does not include deposits shown in FDIC
systems for states that did not respond to the OIG’s requests. However, the reconciliation
process may ultimately identify amounts from those states that should be returned to the FDIC.

Regarding the need for the Corporation to currently have available and control the funds in order
to classify them as “funds to be put to better use,” we disagree. The intent of the IG Act
requirement to identify funds to be put to better use is to provide a justification for the need to
take corrective actions by estimating future monetary benefit of such action. It is unrealistic to
conclude that the corrective action will not result in an increase in deposits returned to the FDIC
just because the FDIC does not now control the deposits. We continue to believe that the
corrective actions are justified because of the likelihood that more deposits will be returned if the
actions are taken.

Based on the audit work, the OIG will report an estimated $1.4 million as funds to be put to
better use in its Semiannual Report to the Congress.




                                                 11
                                                                                      APPENDIX I


                      OBJECTIVES, SCOPE, AND METHODOLOGY

The audit objective was to determine whether the FDIC properly identified and accounted for
unclaimed deposits transferred to state unclaimed property agencies. Initially, we had two other
objectives to determine whether (1) acquiring institutions returned unclaimed deposits to the
FDIC and (2) the FDIC properly accounted for unclaimed funds escheated to the U.S. Treasury.
However, we determined that UDA did not change the requirements for unclaimed deposits as
they relate to acquiring institutions’ responsibilities to return all unclaimed funds back to the
Corporation after 18 months. In addition, we did not review records related to unclaimed funds
transferred to, paid by, or returned from acquiring institutions. Further, we determined that risks
related to unclaimed United States government-owned deposits are very low because those
deposits are escheated to the U. S. Treasury rather than to state unclaimed property agencies. In
a previous OIG audit of unclaimed property, we informed other Offices of Inspector General of
possible audit issues related to United States government-owned deposits. Accordingly, we
dropped the latter objectives from our audit scope and focused on the FDIC's process to identify
and account for unclaimed deposits transferred to state unclaimed property agencies.

To accomplish our objective, we interviewed officials in DRR’s Receivership Management
Section in Washington, D.C.; Claims Section in Dallas, Texas; and Office of Internal Review in
Washington, D.C., and Dallas, Texas. In addition, we interviewed officials in DOF's Accounts
Receivable Unit in Washington, D.C., and Bank Account Control Unit in Dallas, Texas. We
discussed DRR’s and DOF’s policies and procedures to identify, track, and monitor unclaimed
deposits obtained from acquiring institutions and subsequently transferred to state unclaimed
property agencies. We also discussed DRR's and DOF's systems used to record unclaimed
deposits.

We reviewed the applicable sections of the Federal Deposit Insurance Act as amended by the
UDA. In addition, we reviewed DRR’s and DOF’s policies and procedures that implemented
UDA, including DRR's Claims Manual dated March 1994 and March 1996, DOF's Accounting
Bulletin RA-94-002 dated August 11, 1994, and the RTC's Claims Bulletin 05-09 dated
September 28, 1995. We also reviewed the FDIC’s description of a “system of record” in the
FDIC Rules and Regulations, section 2000, and DRR’s and DOF’s correspondence files related
to UDA. In addition, we reviewed the Unclaimed Deposits Reporting System User Manual dated
June 8, 1995.

We requested and obtained reports from DRR and DOF on unclaimed deposits transferred to
state unclaimed property agencies that were recorded in their automated systems and available
from other data sources. Information that DRR provided totaled about $29.6 million in
unclaimed deposits transferred to state unclaimed property agencies. Of that $29.6 million,
approximately $9.5 million had been recorded in DRR’s automated system. The remaining
$20.1 million was available from an access database and in hard-copy format only. DOF
provided reports from its automated system—CARMS—that documented approximately
$28.7 million in unclaimed deposits transferred to state unclaimed property agencies.



                                                12
                                                                                                  APPENDIX I


To determine whether state unclaimed property agencies' unclaimed deposits data agreed with
the FDIC's records, the OIG sent requests to 43 states and the District of Columbia 6 requesting
information on unclaimed deposits received from the FDIC. Because CARMS showed more
unclaimed funds transferred to state agencies than UDRS at the time that the OIG selected its
sample of state agencies to query, we used CARMS data for selecting the states. We did not
send letters to the unclaimed property agencies in the other seven states because they each
received less than $1,000 in unclaimed deposits according to CARMS data. We requested that
each state unclaimed property agency provide the (1) amount of unclaimed deposits received
from the FDIC, (2) total claims paid to deposit owners, and (3) dates any remaining unclaimed
deposits should be returned to the FDIC. To determine differences in reported totals for
unclaimed deposits that the FDIC sent to state agencies, we compared amounts reported in
CARMS with amounts that state agency officials provided in response to our requests.

Based on our discussions with state unclaimed property agency officials, some of those officials
were not familiar with UDA. Accordingly, we explained UDA requirements and provided
copies of UDA for their review. Nine of the 44 state unclaimed property agencies to whom we
sent requests did not respond to our first or second request. The lack of response from those nine
agencies was an external impairment affecting the scope of the audit. Accordingly, we could not
determine whether differences between state and FDIC data existed for those nine states.
CARMS showed that $2,774,159 was transferred to those nine states. Appendix III provides
information on the nine states and amounts transferred to each one based on the CARMS data.

To test the FDIC's current processes for identifying, transferring, and monitoring unclaimed
deposits, we requested unclaimed deposit information on two recent bank failures—BestBank,
which failed in July 1998, and Keystone, which failed in September 1999. However, as of
March 7, 2001, the FDIC had not transferred any unclaimed deposits to state unclaimed property
agencies for those two failed financial institutions. Accordingly, we could not test the FDIC's
current process for transferring and tracking unclaimed deposits related to those two institutions.

We assessed DRR's and DOF's system of internal controls over unclaimed deposits and
conducted substantive tests of controls over the recording and tracking of unclaimed deposits
transferred to state agencies. The OIG conducted the audit from November 2000 through June
2001 in accordance with generally accepted government auditing standards.

6
 We mailed the initial requests to unclaimed property agencies on December 8, 2000. We mailed a second request
on January 11, 2001 to those unclaimed property agencies that had not responded by that date. Of the 44 unclaimed
property agencies to whom we mailed requests, only 34 state agencies and the District of Columbia ultimately
responded.




                                                       13
                                                                                                APPENDIX II
                       Comparison of FDIC and State-Reported Unclaimed Deposits
                                 Reported by the FDIC
               State                 in CARMS                  Reported by State            Difference a
    Alabama                          $ 318,951                   $ 358,833                  $ (39,882)
    Alaska                                  1,759                       9,899                    (8,140)
    California                        13,376,734                  13,193,214                    183,520
    Connecticut                           215,247                    215,247                          0
    District of Columbia                   18,076                     65,964                    (47,888)
    Florida                             3,329,556                  3,411,804                    (82,248)
    Georgia                                97,929                    107,437                     (9,508)
    Hawaii                                  1,491                         230                     1,261
    Idaho                                   5,253                       5,253                         0
    Indiana                                 9,418                       9,418                         0
    Kentucky                                1,775                       1,704                        71
    Louisiana                             358,092                    358,092                          0
    Maine                                  15,860                     48,909                    (33,049)
    Maryland                              487,149                    377,507                    109,642
    Michigan                              165,322                    124,258                     41,064
    Minnesota                               8,720                       8,720                         0
    Mississippi                            21,642                     21,388                        254
    Missouri                               33,104                     57,454                    (24,350)
    Nebraska                               40,235                     42,277                     (2,042)
    Nevada                                  3,251                       3,251                         0
    New Hampshire                          53,084                     53,084                          0
    New Jersey                          1,977,802                  1,983,740                     (5,938)
    New York                              638,328                    280,186                    358,142
    North Carolina                         87,211                     86,647                        564
    Ohio                                2,145,233                  2,127,320                     17,913
    Oregon                                281,103                    281,103                          0
    Rhode Island                        1,173,249                  1,168,098                      5,151
    South Carolina                         71,728                     71,436                        293
    Tennessee                              53,696                     48,908                      4,788
    Texas                                 307,476                  2,613,413                 (2,305,937)
    Vermont                                 1,045                       1,045                         0
    Virginia                              235,246                    244,823                     (9,577)
    Washington                            198,424                    199,648                     (1,224)
    West Virginia                         163,591                    255,631                    (92,040)
    Wisconsin                              37,957                       8,334                    29,623
    Totals b                           $25,934,737                 $27,844,275              $(1,909,537) c
a
The computed difference is based on the variance between CARMS and state-reported amounts because CARMS,
which was based on DRR records, was more complete than UDRS.
b
    Totals do not add due to rounding of state-reported and CARMS data.
c
 The total difference, both positive (the FDIC reported transferring more than 13 states reported receiving—
$752,286) and negative (13 states reported receiving more than the FDIC reported transferring—$2,661,823), was
$3,414,109. Nine states reported receiving the same amounts that the FDIC reported transferring.

Source: OIG analysis of states' responses to OIG requests and CARMS data as of December 5, 2000.


                                                         14
                                                                                      APPENDIX III


     Unclaimed Deposits Transferred to States That Did Not Respond to OIG Requests
              State                                  Reported by the FDIC in CARMS
 Arizona                                                           $ 697,736
 Colorado                                                               19,107
 Delaware                                                              123,299
 Illinois                                                              134,648
 Iowa                                                                   13,678
 Kansas                                                                167,660
 Massachusetts                                                         295,407
 Oklahoma                                                              569,654
 Pennsylvania                                                          752,970
              Total                                                $2,774,159
Source: OIG analysis of CARMS data for states that did not respond to OIG requests.




                                                       15
                                                                                                  APPENDIX IV


                    CALCULATION OF FUNDS TO BE PUT TO BETTER USE

Recommendation 2 results in an estimated $1.4 million in funds that the FDIC can put to better
use. We based our estimate on the amount of unclaimed deposits that the District of Columbia
and 34 states that responded to our requests reported receiving. Table 2 shows our calculation.

Table 2: OIG Calculation of Funds to Be Put to Better Use
       State-Reported Amounts                 Reported in              Reported by
        Compared to CARMS                      CARMS                     States                   Difference
            a
    Higher                                    $ 6,738,009               $ 9,399,832               $2,661,823
    Lowerb                                     18,261,515                17,509,230                 (752,286)
    Samec                                         935,213                   935,213                        0
    Net difference                                                                                $1,909,537
    Reduction for state-paid claimsd                                                                 458,289
    Funds to be put to better use                                                                 $1,451,248
a
 For the District of Columbia and 34 states that responded to OIG requests, 13 reported receiving higher unclaimed
deposit amounts than the FDIC reported in CARMS.
b
 For the District of Columbia and 34 states that responded to OIG requests, 13 reported receiving lower unclaimed
deposit amounts than the FDIC reported in CARMS.
c
 For the District of Columbia and 34 states that responded to OIG requests, 9 reported receiving the same unclaimed
deposit amounts as the FDIC reported in CARMS.
d
 The District of Columbia and 34 states that responded to OIG requests reported that they had paid out $6,789,070 in
claims (24 percent) of the $27,844,275 that they received from the FDIC. We based our comparison of amounts
reported in CARMS and by the states on the total amounts sent to the states. Assuming a comparable percentage of
state-paid claims going forward, we reduced the net difference that we identified by 24 percent to reflect additional
claims that the states could potentially pay before the 10-year holding periods end.

Source: OIG analysis of states' responses to OIG requests and CARMS data as of December 5, 2000.



Our estimate of funds to be put to better use is conservative because

        •   Deposit owners are more likely to claim their funds during the early years of the 10-year
            holding periods. The FDIC transferred most of the $27.8 million that the 34 states and the
            District of Columbia reported receiving over 5 years ago. Therefore, the majority of
            claims for these funds should have been received by the states rather than the steady
            distribution that we have projected.




                                                         16
                                                                                  APPENDIX IV


•   It does not take into account any differences between CARMS and states’ records for the
    nine states that did not respond to our requests, the seven states that we did not send
    requests, or future transfers to states given that it will take time for the FDIC to reconcile
    its records.

•   Additional unclaimed deposits could be added to states’ records as a result of
    reconciliation efforts (e.g., New York reported receiving only $280,186 for one
    institution while CARMS showed that the FDIC transferred $638,328 for 39 institutions).




                                              17
                                                                                             APPENDIX V


1993 Unclaimed Deposits Amendments to the Federal Deposit Insurance Act



                           PUBLIC LAW 103-44 [H.R. 890]; June 28, 1993

               UNCLAIMED DEPOSITS AT INSURED BANKS AND
                        SAVINGS ASSOCIATIONS
  An Act to amend the Federal Deposit Insurance Act to improve the procedures for treating
     unclaimed insured deposits, and for other purposes.

     Be it enacted by the Senate and House of Representatives of
 the United States of America in Congress assembled,
 SECTION 1. AMENDMENTS RELATING TO TREATMENT OF UNCLAIMED
           DEPOSITS AT INSURED BANKS AND SAVINGS ASSOCIATIONS.

     Subsection (e) of section 12 of the Federal Deposit Insurance Act (12 U.S.C. 1822(e)) is
 amended to read as follows:
           "(e) D ISPOSITION OF UNCLAIMED DEPOSITS.—
                "(1) NOTICES.—
                  "(A) FIRST NOTICE.—Within 30 days after the initiation of the payment of
           insured deposits under section 11(f), the Corporation shall provide written notice to
           all insured depositors that they must claim their deposit from the Corporation, or if
           the deposit has been transferred to another institution, from the transferee
           institution.
                  "(B) SECOND NOTICE.—A second notice containing this information shall be
           mailed by the Corporation to all insured depositors who have not responded to the
           first notice, 15 months after the Corporation initiates such payment of insured
           depositors.
                  "(C) ADDRESS.—The notices shall be mailed to the last known address of the
           depositor appearing on the records of the insured depository institution in default.
                "(2) TRANSFER TO APPROPRIATE STATE.—If an insured depositor fails to make a
     claim for his, her, or its insured or transferred deposit within 18 months after the
     Corporation initiates the payment of insured deposits under section 11(f)—
                  "(A) any transferee institution shall refund the deposit to the Corporation, and
           all rights of the depositor against the transferee institution shall be barred; and
                  "(B) with the exception of United States deposits, the Corporation shall deliver
           the deposit to the custody of the appropriate State as unclaimed property, unless the
           appropriate State declines to accept custody. Upon delivery to the appropriate State,
           all rights of the depositor against the Corporation with respect to the deposit shall
           be barred and the Corporation shall be deemed to have made payment to the
           depositor for purposes of section 11(g)(1).
                 "(3) REFUSAL OF APPROPRIATE STATE TO ACCEPT CUSTODY.—If the appropriate
     State declines to accept custody of the deposit tendered pursuant to paragraph (2)(B), the
     deposit shall not


                                             107 STAT. 220




                                                    18
                                                                                                  APPENDIX V


June 28                  UNCLAIMED DEPOSITS                                                P.L. 103-44

          be delivered to any State, and the insured depositor shall
          claim the deposit from the Corporation before the receivership is terminated, or
          all rights of the depositor with respect to such deposit shall be barred.
               "(4) TREATMENT OF UNITED STATES DEPOSITS.—If the deposit is a United
          States deposit it shall be delivered to the Secretary of the Treasury for deposit in
          the general fund of the Treasury. Upon delivery to the Secretary of the
          Treasury, all rights of the depositor against the Corporation with respect to the
          deposit shall be barred and the Corporation shall be deemed to have made
          payment to the depositor for purposes of section 11(g)(1).
               "(5) REVERSION.—If a depositor does not claim the deposit delivered to the
          custody of the appropriate State pursuant to paragraph (2)(B) within 10 years of
          the date of delivery, the deposit shall be immediately refunded to the
          Corporation and become its property. All rights of the depositor against the
          appropriate State with respect to such deposit shall be barred as of the date of
          the refund to the Corporation.
               "(6) DEFINITIONS.—For purposes of this subsection—
                     "(A) the term 'transferee institution' means the insured depository
               institution in which the Corporation has made available a transferred deposit
               pursuant to section 11(f)(l);
                     "(B) the term 'appropriate State' means the State to which notice was
               mailed under paragraph (1)(C), except that if the notice was not mailed to an
               address that is within a State it shall mean the State in which the depository
               institution in default has its main office; and
                     "(C) the term 'United States deposit' means an insured or transferred
               deposit for which the deposit records of the depository institution in default
               disclose that title to the deposit is held by the United States, any department,
               agency, or instrumentality of the Federal Government, or any officer or
               employee thereof in such person's official capacity.".
     SEC. 2. EFFECTIVE DATE.                                                                      12 USC 1822
                                                                                                   note.
           (a) I N GENERAL.—The amendments made by section 1 of this Act shall only
     apply with respect to institutions for which the Corporation has initiated the
     payment of insured deposits under section 11(f) of the Federal Deposit Insurance
     Act after the date of enactment of this Act.
           (b) SPECIAL RULE FOR RECEIVERSHIPS IN PROGRESS.—Section 12(e) of the
     Federal Deposit Insurance Act as in effect on the day before the date of enactment
     of this Act shall apply with respect to insured deposits in depository institutions for
     which the Corporation was first appointed receiver during the period between
     January 1, 1989 and the date of enactment of this Act, except that such section 12(e)
     shall not bar any claim made against the Corporation by an insured depositor for an
     insured or transferred deposit, so long as such claim is made prior to the termination
     of the receivership.
           (c) INFORMATION TO STATES.—Within 120 days after the date of enactment
     of this Act, the Corporation shall provide, at the request of and for the sole use of
     any State, the name and last known address of any insured depositor (as shown on
     the records of the institution in default) eligible to make a claim against the

                                           107 STAT. 221




                                                  19
                                                                                    APPENDIX V




P.L. 103-44                   LAWS OF 103rd CONG.—1st SESS.                       June 28


              Corporation solely due to the operation of subsection (b) of this
              section.
                   (d) DEFINITION.—For purposes of this section, the term
              "Corporation" means the Federal Deposit Insurance
              Corporation, the Resolution Trust Corporation, or the Federal
              Savings and Loan Insurance Corporation, as appropriate.

                Approved June 28, 1993.




                       ______________________________
                       LEGISLATIVE HISTORY--H.R. 890:
                       CONGRESSIONAL RECORD, Vol. 139 (1993):
                             Mar. 2, considered and passed House.
                             May 27, considered and passed Senate, amended.
                             June 9, House concurred in Senate amendments.


                                          107 STAT. 222




                                          20
                       APPENDIX VI

CORPORATION COMMENTS




         21
     APPENDIX VI




22
     APPENDIX VI




23
     APPENDIX VI




24
     APPENDIX VI




25
